<html>
<title> - WINTER STORMS</title>
<body><pre>[Senate Hearing 109-388]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-388
 
                             WINTER STORMS

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
27-401                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                  JIM DeMint, South Carolina, Chairman
TED STEVENS, Alaska                  E. BENJAMIN NELSON, Nebraska, 
GORDON H. SMITH, Oregon                  Ranking
DAVID VITTER, Louisiana              MARIA CANTWELL, Washington
                                     BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2006....................................     1
Statement of Senator DeMint......................................     1
Statement of Senator E. Benjamin Nelson..........................     3
Statement of Senator Stevens.....................................     2

                               Witnesses

Michels, Hon. Denise, Mayor, City of Nome/President, Alaska 
  Conference of Mayors...........................................     4
    Prepared statement...........................................     6
Uccellini, Dr. Louis W., Director, National Centers for 
  Environmental Prediction, National Oceanic and Atmospheric 
  Administration (NOAA)..........................................     9
    Prepared statement...........................................    12


                             WINTER STORMS

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                               U.S. Senate,
          Subcommittee on Disaster, Prevention and 
                                        Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Jim DeMint, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMint, 
                 U.S. SENATOR OF SOUTH CAROLINA

    Senator DeMint. A particular thanks to our witnesses today. 
This afternoon, the Subcommittee on Disaster Prevention and 
Prediction will be meeting to discuss severe winter weather and 
its impacts on communities and commerce. While winter storms 
are often not as sensational as hurricanes and tornadoes, these 
storms still have a devastating impact on businesses and their 
accurate prediction is essential to the efficient movement of 
commerce and the protection of public safety.
    Our Nation faces a variety of winter storms. Most people 
are familiar with the nor'easters that hit the eastern seaboard 
of the United States, frequently blanketing cities from 
Washington to Boston with a layer of snow. But people are 
likely not as aware of the devastating storms that buffet the 
coast of Alaska with high winds, intense cold, and devastating 
erosion. There's also probably not as much understanding of the 
driving blizzards that produce blinding white-outs in the 
Midwest, crippling traffic and creating huge snowdrifts. And 
finally, there seems to be little recognition of the ice storms 
that hit the southern United States, often leaving thousands 
without power.
    In the middle of December, upstate South Carolina was hit 
with a devastating ice storm. As the ice accumulated on tree 
limbs and wires in communities across the upstate, houses went 
dark. All told, at the end of the storm, nearly 900,000 people 
were without power. Many had their homes damaged, including 
mine. The destruction was so widespread and devastating that 
the damage was significant; so significant that the region 
received a disaster declaration from FEMA, and this was a 
relatively small area of the state. While the storm's onset was 
not a surprise, its magnitude caught some people off guard.
    To avoid some of the consequences of these storms, the 
Nation needs accurate and timely storm prediction. While there 
would still have been a high level of power outages during the 
storm in South Carolina, if we had had a clearer idea of what 
was to come, individuals would have had a better idea of what 
was in store and the power companies could have marshaled more 
support to get our power back on more quickly. Many were 
without power for a week.
    The news is not always bad. NOAA is improving the quality 
of its forecast. For example, the 72-hour forecasts are as 
accurate today as the 36-hour forecasts were 20 years ago. This 
is important progress because it provides an essential planning 
time that's necessary for emergency planners as well as for 
citizens who may need to stock up on food and water and 
alternative sources of heat.
    I'm looking forward to the comments of our witnesses this 
morning to explain what they believe needs to be done to ensure 
that we improve the quality of our forecasts and better prepare 
our communities for these storms. I'll now yield to Chairman 
Stevens for his opening comments and the introduction of our 
first witness.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you very much, Senator. I do appreciate 
you holding this hearing. If the Senate wasn't in session, I 
would have preferred to hold it in Mayor Michels' hometown. 
Unfortunately, the Weather Bureau has just put out a warning, a 
blizzard warning, Mayor. I assume you know. It's in effect 
until 6 a.m. tomorrow. It's for Nome and the surrounding areas. 
Current weather there is a wind chill of minus 29 and the winds 
are 38 miles an hour from the east.
    That's not good news, Senator, because it's just 2 days 
away from one of my favorite activities in Nome we will start 
celebrating, and this is the--this is a tough time to have this 
kind of weather when the Iditarod is underway. It is the last 
great race. It's a great sporting event. We'd love to have you 
come up and witness the--the end of it is in Mayor Michels' 
home, and it, of course, was the target for serum that was 
delivered by dog sled back in 1925.
    But I do thank you, Denise, for coming up--or coming down 
rather and being up here on the Hill to testify and I think 
this is the kind of hearing we should have more often. By the 
way, Mr. Chairman, there is the warning that came out of the 
Fairbanks Weather Service. Now you have to realize that 
Fairbanks is 900 miles away, at least. That's where our weather 
station is that deals with storms off that part of the coast, 
if I'm correct, Mr. Uccellini.
    I brought with me some of the typical storms of the past. 
The Bering Sea storm of 2004, compared to Hurricane Andrew, you 
can see where it came off the Russian Peninsula, the Kamchatka 
area and it came across to Alaska. This is the latest storm, in 
September of this past year. It really is a very, very 
beautiful picture of what happens in the North Pacific when 
there is a monstrous storm of this type. And we also have some 
of the photographs of what happened to Nome in October of 2004.
    And this is one of the area maps that I like to show 
people. It shows how Alaska stretches across the whole of the 
United States, but when you look at it, we have three areas 
of--weather forecasting areas of responsibility and that shows 
you how far away they really are from--in the days gone by, we 
had these weather offices in almost every area of the state. 
This is the Ninilchik flood on the Kenai Peninsula. I was 
actually down there at that time in 2002. It took out that 
bridge there over the Illiamna River.
    I'm telling you, these are--the comparisons to--this is a 
map prepared by NOAA showing the comparison of the number of 
storms that have hit the United States and the number that hit 
Alaska on an annual basis. This is the Barrow Storm of 2000. 
Again, one of the most difficult storms that they've had in the 
Arctic in history. I do think it's an area that should be 
studied more and we should have more information about it 
because of its impact on the overall National Weather System.
    So I thank you very much, and as I said, thank you, also, 
Doctor, for coming to testify. I see behind you a familiar 
face. You have support.
    Senator DeMint. Thank you, Mr. Chairman. Senator Nelson, 
would you like to make an opening statement?

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Nelson. Thank you very much, Mr. Chairman, 
particularly for holding this hearing. Obviously, Nebraska sees 
our share of winter storms every year, so this is clearly a 
topic of great interest to me.
    Now winter storms, perhaps, have less direct impact on 
society than maybe other storms such as hurricanes or 
tornadoes, but they still can threaten lives, disrupt 
transportation systems, and have a significant impact on the 
national economy. Winter weather not only presents a 
substantial challenge for forecasters, but poses risks to 
public safety and can take a huge economic toll on agriculture, 
transportation, utilities, and other businesses long after the 
storm passes.
    In Nebraska, for example, the average yearly snowfall 
ranges from about 27 inches in the southeastern part of the 
state to 41 inches in the panhandle. Now this year, it hasn't 
reached anything like that, but along with the snowfall, each 
year we contend with ice and bitter cold temperatures. Even a 
small accumulation of ice can make driving treacherous and 
heavy accumulations can bring down trees and utility poles, 
affecting power and communications. Because Nebraska is a very 
windy state, it's not uncommon for wind chills to be several 
degrees below zero, leading to the possibility of frostbite or 
hypothermia for anyone exposed to the cold for any length of 
time.
    As a former Governor and with the responsibility for making 
sure my state was prepared to respond to severe winter weather, 
I can state firsthand that timely and accurate forecasting of 
winter storms is crucial to being able to respond in an 
effective manner. And I'm sure that Mayor Michels will agree 
with me on that. Accurate, advance warning of approaching 
storms allows both state and local officials to give the public 
adequate notice of the storm and instructions on how to 
prepare. Clearly, safety is our first priority, but there's 
also an economic factor to be considered as well. Large winter 
storms can impact the daily activities of potentially millions 
of people over the course of several days. But the economic 
costs of cleanup, underemployment, and lost business are not 
typically accounted for in damage estimates. The impacts of 
winter storms on shipping and airline industries likewise can 
be substantial.
    The Nation's complex infrastructure of highways, city 
streets, and local roads present a challenge to the Department 
of Transportation, state agencies, and municipal governments 
who are charged with maintaining safe transit conditions for 
the public and the flow of commerce. More accurate winter storm 
forecasts can help people prepare for these events and reduce 
direct and indirect costs associated with them.
    I look forward to the testimony today and I appreciate very 
much this opportunity, Mr. Chairman.
    Senator DeMint. Thank you, Senator. We will start with the 
Mayor, but before we do, I think I need to introduce Dr. 
Uccellini, right? Do I have that right? Dr. Uccellini is 
currently the Director of National Weather Service's National 
Center for Environmental Prediction, which we call NCEP. In his 
position, he's responsible for directing and implementing the 
science, technology, and operations related to the seven 
national centers that forecast specific weather phenomena, 
including the Climate Prediction Center and the National 
Hurricane Center.
    In addition to his role as Director of NCEP, he is one of 
the Nation's leading authorities on severe winter weather. Just 
a few years ago, Dr. Uccellini co-published, with Paul Kosin 
from The Weather Channel, a two-volume study on northeast snow 
storms, which is widely regarded as a definitive text. 
Throughout his career with NOAA, he's published a number of 
other publications on severe weather and winter weather in 
particular. So we're pleased to have you and we'll hear from 
you in just a moment, but Mayor Michels, since you've come the 
longest way, we greatly appreciate you doing that, we'll allow 
a short opening statement and then we'll go to Dr. Uccellini.

     STATEMENT OF HON. DENISE MICHELS, MAYOR, CITY OF NOME/
             PRESIDENT, ALASKA CONFERENCE OF MAYORS

    Ms. Michels. Thank you for inviting me. The information I'm 
going to provide you today comes from the communities that are 
affected, the State of Alaska, and also the University of 
Alaska's International Arctic Research Center.
    As you can see on there, Nome is located on the Seward 
Peninsula. We're facing the Norton Sound. The Bering Strait's 
region occupies 17 communities and every time we have a storm, 
every one of these communities is affected because we are 
located on the coast. Unlike most of America, we do not have a 
road system. All of our transportation coming into Nome and 
into the villages is by air and so when we do have a storm, all 
transportation is stopped. We are greatly affected by the high 
winds. Planes cannot fly and our roads get wiped out.
    Western Alaska has survived the Spanish flu, deadly 
diphtheria and, for the last few years, storms with erosion 
which is something new. We have listed, in the paperwork that 
I've provided you, storms documented since 1900 to 1946 and 
this caused Nome to request for a seawall that was built in 
1949, 1950. This seawall has just saved Nome immensely. Without 
that, the damage and economics of it would be just devastating.
    During the 2003 storm, we were lucky that the Weather 
Service gave us an early warning, where the communities up in 
the north, like Shishmaref and Kivalina, had 1 day to prepare 
to put items to high land. That still caused damage and 
impacted their community because meat on racks were lost and so 
there was economic hardship that was faced that normal 
communities in the south don't experience.
    In 2003, FEMA approved the city of Nome's Hazardous 
Mitigation Plan. We were the first in the state and second in 
the Nation to get our plan approved. We identified community 
and business leaders, vulnerable locations, developed effective 
mitigation strategies. We learned about an incident command 
system, which is totally different. And the Weather Service in 
Nome is a very essential part of this team.
    During the 2004 storm, the Weather Service also gave us an 
early warning and this time we were able to take precautionary 
steps. Our emergency operation center, along with the Troopers 
and the National Guard, we were able to go downtown and ask the 
stores and the people that live there to board up their windows 
and prepare to go to higher ground. Now, in the villages, there 
is no Home Depot where you can run and grab plywood. You have 
to find what is available and so, giving this early warning 
really helps us try to find those resources in the rural areas.
    It is very evident that we are seeing these storms more 
often, mainly because freeze-up is coming later in the year and 
so far, the Western Alaska storms for the last 100 years, based 
on the information we have, is $48,000,000, without the 2005 
numbers that we have not received yet.
    We are impacted because our per capita income is lower. 
Economic options are limited. For example, if you lose your 
boat, that's your only source for getting subsistence. You 
can't get a grant or you--you know, we don't have the money to 
get a loan for a new boat. And then another one is the 
infrastructure, like if a road or an airport goes out, we have 
to wait for resources to come to us and that may take a couple 
days.
    In the City of Nome, we continue to hold our LEPC meetings. 
We conduct drills. We receive training. As you can see with our 
professional response, we are very dedicated to make sure that 
disaster preparation and recovery is the number one priority.
    Some of the items that the region is doing, for instance, 
our power plant is located in the flood zone. We are working on 
moving that onto higher ground. In Shishmaref, with the 
assistance of the State, they wrote an evacuation and flood 
plan. They're also working to relocate with assistance from 
USDA's Natural Resource Conservation Service. The Northwest 
Arctic Borough, where Kivalina is located, is working on 
finding resources to help them complete their Hazardous 
Mitigation Plan. No communities have completed their Hazardous 
Mitigation Plan, one of the reasons why is that they're 
financially strapped in rural areas. We don't have the economic 
base because we rely on subsistence.
    So I'm hoping to bring this message to you today to help 
our communities complete their Hazardous Mitigation Plans, that 
you would consider funding the State of Alaska to provide more 
funds so that they can complete these plans, or consider a 
pilot project in Northwest Alaska to have an agency come in and 
work with the communities to complete these Hazardous 
Mitigation Plans. The reason why is that once these plans are 
done, the economics and the damage will not be as expensive. 
And so there's going to be a savings, both life, property, and 
resources.
    Also, to assist the Weather Service in predicting models, 
we recommend that possibly more buoys be in the Bering Strait 
region. There's one buoy about 600 miles toward the Aleutians 
that they have to use to predict weather. The Corps of 
Engineers, when they're designing ports and harbors and erosion 
facilities, basically use the information on the buoy. So, to 
provide them with more technical assistance, that would, I 
think, benefit everyone. Also, more observation points are 
needed. We do not have that many in the area and so if we were 
able to have more observations, be it automatic or in person, 
that would be able to help the Weather Service in doing 
predictions and providing that information out to us faster.
    We're also working with the University of Alaska to see if 
a research center in Nome would be possible. It's evident that 
the permafrost is melting. You can go down the Nome Teller 
Highway and you can see where the tundra sloughed off and the 
permafrost is exposed and everything is just melting and 
creating big divots and that will be expensive to our 
transportation infrastructure.
    We really thank NOAA for being a partner with the city of 
Nome on our economic--on our local emergency committee and I 
thank you for having me here. It's a real honor and if you need 
any information, I have a whole stack of stuff here that I can 
provide to you. Thank you.
    [The prepared statement of Ms. Michels follows:]

    Prepared Statement of Hon. Denise Michels, Mayor, City of Nome/
                 President, Alaska Conference of Mayors

    Good afternoon Mr. Chairman, I am Denise Michels, Mayor of the City 
of Nome and President of the Alaska Conference of Mayors. I would like 
to provide you an overview of the winter storms western Alaska has been 
hit with for the last 100 years and our ability to prepare for these 
storms and recommendations for your consideration. This information was 
provided by the communities affected by the storms, National Weather 
Service, State of Alaska's Division of Community Advocacy, Division of 
Homeland Security & Emergency Management, and the University of 
Alaska's International Arctic Research Center.
    The City of Nome is located in Northwest Alaska on the southern 
coast of the Seward Peninsula. Nome lies along the Bering Sea facing 
Norton Sound. The city is 539 air miles north of Anchorage and 161 
miles east of Russia.
    Nome Census Area encloses a 23,013 square mile section of the 
Seward Peninsula and the Norton Sound coast. The Nome Census Area is 
commonly referred to as the Bering Strait region. Currently 17 
communities occupy the Nome Census Area, of which Nome has the largest 
population and is the regional hub for medical and transportation 
facilities and other services.
    Unlike most areas in America, a road system does not exist 
throughout the Bering Strait region. Air transportation is the most 
common and reliable mode of transportation throughout the year. Many of 
the communities of Northwest Alaska have developed because of the 
convenience to traditional hunting or fishing grounds and community 
residents utilize the rivers and coastline as vital routes for 
transportation during the summer months using boats with outboard 
motors. When storms hit, all transportation ceases. We are not able to 
perform medical or emergency evacuations of remote isolate communities 
due to the high winds and dangerous freezing ice conditions.
    Gold was reported in the Nome area as far back as 1867 but it was 
not until the Gold Rush of 1899 that brought people in the area 
settling on the coast. Western Alaska has survived the Spanish 
influenza, the deadly diphtheria breakout in Nome and winter storms.
    The major risk for the City of Nome and other communities are from 
coastal storm surges which in the last few years have caused severe 
erosion. The fairly shallow water off shore normally keeps waves small. 
However during a surge, water depth increases, allowing larger, more 
powerful waves to impact the coast. This fact, combined with the 
flooding due to the surge itself can deal a devastating double blow to 
the area. The situation is made worse if the surge comes at high tide. 
Ice override may occur when the storm wind conditions are coupled with 
open water depending on the prevailing winds. These storm surges have 
wreaked havoc on the city many times in the past and will do so again.
    The City of Nome has been battered many times over the years by 
storm surges, which have caused significant loss of life and property 
since the early 1900s. The following is a chronology of information on 
the largest storms taken from newspaper articles, publications, the 
Nome Flood Insurance Study, and technical documents prepared by the 
United States Government.
    Great Storm of September 12, 1900. The first recorded storm in Nome 
occurred on September 12, 1900. It is estimated that the winds were 75 
mph. The towering waves destroyed or washed away almost everything on 
the beach, and part of Nome's business district. It was estimated that 
1,000 people were homeless, numerous people died, many head of cattle 
and sheep were lost and 10,000 tons of coal were swept into the sea. 
The total damage was estimated at $750,000.
    Storm of October 1902. The storm of October 11, 1902 produced waves 
only 2,, less than the storm in 1900 however the wind was not as 
fierce. The estimated damaged would not exceed $25,000 to $30,000.
    Storm of October 1913. The October 1913 is the worst storm to date. 
Waves broke over the top of the city breaking apart entire business 
blocks. Gale winds were clocked at 60 mph, which produced breaking 
waves of 40, high and a storm surge of 20,. Most of the town was 
destroyed. The entire sand spit, which housed hundreds of homes, was 
completely swept away. Five hundred people were homeless, most of them 
destitute. The damage was estimated at $1,000,000.
    Storms of 1945 and 1946. The 1945 storm caused severe damage to 
waterfront structures, hurling blocks of ice into the town. In October 
1946, a coastal storm created surge estimated at 9, above normal. Many 
of the streets of Nome were inundated, flooding buildings and property. 
The storm leveled six buildings. Coastal erosion was so severe that 
several near shore buildings were undermined and collapsed.
    These storms led to the push for a seawall and were successful in 
getting Congress to appropriate $1 million (Rivers & Harbors Action, 6/
16/1948--Pub. L. 80-649) in 1949 to build the seawall.
    The Great Bering Sea Storm of 1974. Three separate storms 
simultaneously hit Northwestern Alaska's coastline in November that 
produced a storm surge or rise in water level of up to 12, MLLW. 
Extensive damage to streets and structures occurred with approximately 
30 homes destroyed and many displaced as one of the power plant's 
generators sat in pit and flooded with water and power lines were down. 
The city's sewage treatment plant was out of order until it was by-
passed so toilets could be used. Water was contaminated due to the sea 
water coming into the river so water trucks delivered 100 gallons of 
water to those on the truck route; others had to get water at the fire 
hall. An ice pileup reached 30-40,. The seawall protected the city; 
however, damage was still estimated to be over $30 million.
    Extensive damage to villages occurred, flooding homes damaging 
power lines, and roads.
    1980s. A pileup in the winter of 1980 reached a height of 20-25,. 
The seawall localizes the effects of ice override and prevents the 
transport of ice inland.
    Storm of 1992. A storm in October 1992 severely damaged the 
revetment on the eastern edge of the seawall. This storm led to the 
1993 expansion of the large rock seawall to replace the revetment, 
which was at a lower elevation and a pavement structure of small 
stones.
    Sizable ice piles occur with considerable frequency in Nome. Ice 
override occurred a few years ago on the east side of town, but a 
bulldozer turned the ice sheet back.
    Storm of 2002. On October 8, 2002, a winter storm hit with winds at 
45 mph and in Shishmaref and Kivalina seas were reported at 14, at high 
tide. Severe erosion on the embankment of the beach in Shishmaref 
occurred losing 10,-20,. Homes were endangered along with a bulk fuel 
tank farm. Total damage was $382,032.
    Storm of 2003. On November 21-23, 2003, Shishmaref was hit by a 
storm with winds blowing 45 mph with gusts to 61 mph, seas were as high 
as 14,. Early warning by the National Weather Service (NWS) gave 
community members one day to move items to higher land. Severe erosion 
occurred again losing an additional 10,-30, of land causing power poles 
to fall over. Boats and drying racks with subsistence food were washed 
out to sea causing economic hardship to the community. Total damage was 
$695,000.
    In 2003, FEMA approved the City of Nome's Hazard Mitigation Plan 
making us the first in the state and second in the Nation. We are 
eligible to apply for various hazard mitigation project grants. Because 
this was new to us a consultant was hired. We identified community and 
business leaders, identified vulnerable locations, developed effective 
mitigation strategies and practiced disaster response plans. We've 
learned about Incident Command and Unified Command Management and 
learned how to work and communicate effectively as a team and have 
established an Emergency Operations Center. The National Weather 
Service's Nome staff is an essential part of this team.
    Storm of 2004. October 19, 2004 Bering Sea Storm caused significant 
damage and destruction to Western Alaska. Early warnings by the NWS 
predicted the 941 mb pressure storm could rival that of November 1974, 
so precautionary steps were taken. The storm did not develop to the 
levels of the event. At the airport in Nome peak winds were 59 mph. 
NOAA maintains a weather station on the port causeway which recorded an 
hourly observation during the storm at 55 mph and a peak tide of 
+10.5,.
    The City of Nome activated the Emergency Operations Plan and 
implemented the Incident Command System. We involved approximately 100 
personnel from the Alaska State Troopers, Alaska National Guard, Nome 
Volunteer Fire Department, Nome Ambulance Department, Nome Police 
Department; City/Utility/Public works employees and civilians in 
various capabilities. Pre-storm activities included boarding up doors 
and windows, relocating inventory to high ground, securing docks and 
closing roads.
    Many villages in low lying areas were flooded and major damage 
occurred to the infrastructure and roads. The community of Shishmaref 
lost more land due to erosion. Kotezbue's Front Street was under water. 
Commercial propane bottles were thrown around causing an evacuation of 
Nome's Front Street. We experienced power outages which can compound 
the destruction by freezing up water and sewer lines. The storm created 
a new channel and washout the Nome-Council Road at Safety Bridge.
    The City of Nome declared a disaster on 10/19 along with Northwest 
Arctic Borough. The Governor declared a disaster on 10/29 along with 
the Federal Government on 11/16/2004. The estimate cost of this 
disaster is $12,460,469.
    Storm of 2005. The 966 mb September 22nd storm hit Western Alaska 
and continued until the 23rd. Nome's peak tide was +10.3, with peak 
winds at 56 mph. The Early warnings by the NWS gave a day and a half 
for the city to establish an Emergency Operations Center (EOC). Front 
Street businesses prepared for the storm by boarding windows, doors, 
protecting inventory and ensuring operational pumps. The EOC kept in 
contact with our villages in preparation to assist and to communicate 
with our emergency services folks if anything developed. In Unalakleet 
this early warning allowed the community to haul rocks to protect their 
shorelines in hopes of slowing down erosion.
    Kivalina lost 25,-30, of beach erosion along their shoreline and 
20, of beach erosion towards the airstrip. In Golovin, water covered 
roadways 3, deep, fuel tanks were floating and the lower half of town 
was under water. In Teller, sea water flooded the main road splitting 
the town in two. The community of Shaktoolik located on a spit will 
become an island if they are hit with another big storm blocking 
evacuation access.
    In Nome power lines were down. Low lying homes were flooded. The 
new harbor entrance failed as sand eroded away and nearly exposed the 
utility sewer line. The new breakwater was damaged, 5-8 ton rocks were 
displaced and repairs had to be done. The Nome Council Road was washed 
away for several miles and the newly created channel broke thru again. 
Shelter was given to 17 evacuees; several families were dislocated as 
their homes were damaged. The City of Nome and surrounding areas, the 
State of Alaska and the FEMA declared disasters. State DHSEM is 
preparing an estimate cost and has identified $2 million in damage to 
communities and another $1.2 million to roads and infrastructure.
    It is evident that we are seeing severe winter storms more often 
then the prior years as documented, mainly freeze up comes later in the 
year. Total cost of Western Alaska storms for the last 100 years is 
estimated at $48,517,501. Alaska is severely impacted by storms as our 
per capita income is lower than the U.S. eastern seaboard, economic 
options are limited, and recovery may be slower due to the needed 
infrastructure.
    The City of Nome continues to hold monthly Local Emergency Planning 
Committee meetings, conduct drills and receive training in incident 
command and coordination of multiple agencies in Nome. Our professional 
response, before and after the storm demonstrated our commitment to 
disaster preparation and recovery. Another preventative measure is that 
the City of Nome is in process of moving the power plant to higher 
ground and we need an additional $4 million to complete construction.
    The City of Shishmaref with the assistance of the Alaska Division 
of Emergency Services completed an evacuation and flood action plan. 
The Shishmaref Erosion and Relocation Committee are actively pursuing 
to relocate to the mainland. The community is working with USDA's 
Natural Resources Conservation Service in assessing two different sites 
on the mainland. Also the Northwest Arctic Borough is an Emergency 
Management Grant program participant and they are researching several 
options to apply for funds to help Kivalina complete their Hazardous 
Mitigation Plan.
    No other communities have completed their hazardous mitigation 
plan. One reason is that a majority of our cities are hurting 
financially and are not fully staffed and secondly the State received 
minimal amount of funds for remaining cities to apply for a grant to 
complete the hazardous mitigation plan. To assist our communities we 
recommend the following for your consideration:

  <bullet> That the Federal Government provide more funds to the State 
        of Alaska for the cities to complete their plans.

  <bullet> Consider funding a pilot project through the State to 
        complete the plans with the communities in Western Alaska.

    To assist the National Weather Service to predict models we 
recommend the following for your consideration:

  <bullet> More buoys are need in the Bering Sea. Currently two buoys 
        are located near the Aleutian chain; the closest buoy #46035 is 
        several hundred miles south of Nome. This would also assist the 
        U.S. Corps of Engineers with the design of causeway, flood 
        protection and shore erosion facilities.

  <bullet> More observation points are needed throughout the region to 
        help NWS fill in the data holes.

    The City of Nome is in process of working with the University of 
Alaska in Fairbanks to assess if a science research center is feasible 
for focus on science, education and history including research. We hope 
that NOAA will be a partner as Nome is in a unique location to study 
the environmental changes.
    Mr. Chairman, I would like to thank you for giving me the 
opportunity to provide this information to the Committee, it's truly an 
honor to be here. If there is anything else I can provide please let me 
know.

    Senator DeMint. I'm sure we'll have some questions in a 
moment, but Dr. Uccellini, if you will give us a short 
statement.

        STATEMENT OF DR. LOUIS W. UCCELLINI, DIRECTOR, 
NATIONAL CENTERS FOR ENVIRONMENTAL PREDICTION, NATIONAL OCEANIC 
             AND ATMOSPHERIC ADMINISTRATION (NOAA)

    Dr. Uccellini. OK. Mr. Chairman and Members of the 
Committee, I am Dr. Louis Uccellini, the Director of NCEP, or 
the National Centers for Environmental Prediction, which is the 
central component of the National Weather Service within NOAA 
within the Department of Commerce. You mentioned several of the 
centers. I also want to point out the Ocean Prediction Center 
and I do that because the director of the Ocean Prediction 
Center is sitting behind me, Dr. James Hoke and they have to 
deal with storms like that, too, in the Pacific, North Pacific, 
and North Atlantic Oceans. And it obviously provides tremendous 
challenges to the forecasters in these centers and in the local 
offices within Alaska in dealing with those storms.
    I'd like to thank the Mayor for making the comments she did 
about NOAA and the National Weather Service and the services 
that we've provided for several of the most critical storms 
which have occurred in Alaska over the past several years.
    I'd also like to thank Members of the Committee for their 
support of a much needed facility. The NOAA Center for Climate 
and Weather Prediction is a project we've been working on for 
many years now and we have our official ground breaking 
ceremony on March 13th and we're due for occupancy within 2 
years. So we want to thank you for your support.
    OK. So let's get to the winter storms. A major winter storm 
can produce freezing rain, ice, sleet, heavy snowfall, coastal 
flooding, and erosion, and high winds that combine with cold 
temperatures to produce dangerous wind chills. The severity of 
the winter storms can range from a storm that produces snow or 
freezing rain over a few hours to blizzard conditions lasting 
several days. Winter storms can threaten lives, disrupt 
transportation systems, have a significant impact on the 
national economy, and affect all regions of the United States. 
A single winter storm can cause major damage and billions of 
dollars in economic losses.
    The science of winter storm prediction has improved 
steadily over the past two decades. As noted earlier, the 72-
hour forecasts are as accurate as 36-hour forecasts. That's 
actually 15 to 20 years ago. The average national lead time for 
warning for winter storms has been increasing and in Fiscal 
Year 2005, the lead time was 17 hours, on average, across the 
country, which exceeded our GPRA goal of 15 hours. The 
improvement is due, in large part, to the continual 
enhancements in global observations and American weather 
prediction models, including advancements in the high 
performance computing systems. And an aspect of this global 
observing system is maintaining and enhancing our satellite 
observation network and improving dissemination methods of the 
data and of the forecasts and warnings once they're made.
    Now, NOAA has a suite of winter weather products which 
spans from seasonal outlooks to two week outlooks down to the 
short term warnings issued hours in advance. A hazard 
assessment product shows where the potential for hazardous 
weather and extreme events are possible across the country out 
to 2 weeks in advance. Additional improvements in winter 
weather predictions and services 5 days in advance can be 
attributed to NOAA's winter storm reconnaissance program, in 
part. The winter storm reconnaissance program is designed to 
improve forecasts of significant winter weather by targeting 
observations in data sparse areas in the North Pacific Ocean. 
These observations significantly improve numerical weather 
predictions 60 to 80 percent of the time. We do this program 
only during the winter. When we get the planes out there and 
when we get the drop zones to areas where we know we have 
observation issues, we can show that 60 to 80 percent of the 
time, we improve subsequent forecasts. By improving the model 
analysis over the North Pacific, we see improved forecasts for 
Alaska as well as the rest of the Nation.
    We are also addressing the winter storm watch and warning 
program, the short term aspect of our service program, by 
increasingly focusing staff on winter storm predictions. 
Initial results in the east and in central United States have 
been positive as our warning lead times have increased over the 
past 3 years, on average, from 13 hours to 19 hours, and 
increased our accuracy to 92 percent. We expect similar 
improvements as we continue to expand this program to other 
areas of the country.
    NOAA provides radar data, surface observation, sea surface 
temperatures, and satellite images as well as computer model 
simulations of the atmosphere that are used by the entire 
weather community. NOAA's data, forecasts, and warnings are 
disseminated through the vast National Weather Service 
dissemination network, including the NOAA Weather Radio All 
Hazards, Emergency Managers Weather Information Network, NOAA 
Weather Wire Services, the Emergency Alert System, and, where 
applicable, the Internet. We work in close partnership with all 
the media and other private sector firms to ensure that 
dangerous and potentially life threatening weather situations 
such as winter storms are readily communicated to the public.
    Our ability to predict major snow and ice events with 
increased confidence allows officials to make decisions prior 
to these events concerning public safety, transportation, and 
commerce. Now, a most recent example, and one that affected 
this part of the country, is the recent February winter storm 
along the northeast urban corridor. State and local communities 
up and down the coast positioned road crews and prepared 
schedules to apply road chemicals well before the onset of the 
storm. Retail outlets had snow removal equipment and heavy 
clothing on the shelf with advertising of ``blizzard blowouts'' 
days before this storm actually occurred. Affected areas were 
able to make a remarkable recovery after the storm due to the 
advance planning. NOAA's medium range and short range forecasts 
were accurate and provided state and local governments with the 
information they needed to take action to mitigate the impact 
of the snow storm. And I'd like to add here that this is very 
similar to October 18-20, 2004, which was just alluded to, off 
of the coast of Alaska. Mitigating steps were taken before the 
storm's arrival because of the forecast provided.
    Recently NOAA has implemented a new snowfall impact scale 
which my colleague, Paul Kosin of The Weather Channel, and I 
developed. The scale takes into account snowfall amounts and 
the population of affected areas and measures the impact the 
storm has, in this case, in the northeast sector of the 
country. With this scale, scientists can quickly assess a snow 
storm's potential impact to heavily populated areas, compare it 
with past storms in an objective manner and assign it one of 
five categories ranging from notable to crippling to extreme. 
Work is currently underway to expand this concept and the 
baseline equation that we use to compute this index to other 
parts of the country. In fact, I had phone conversations over 
the past week with the Director of the National Climate Data 
Center to work this issue, not only for the CONUS, the 
Continental United States, but also for Alaska.
    NOAA continues to work with universities, the private 
sector, and other Federal agencies to improve our understanding 
of these storms. NOAA is also working to improve satellite 
observing capabilities over ocean, land, and ice, through the 
NPOESS and GOES programs with this new data expected to have 
major impacts on the numerical prediction systems used to 
predict winter storms. NOAA will continue these efforts to 
improve winter storm forecasting and all other weather 
predictions.
    That concludes my statement, Mr. Chairman.
    [The prepared statement of Dr. Uccellini follows:]

   Prepared Statement of Dr. Louis W. Uccellini, Director, National 
Centers for Environmental Prediction, National Oceanic and Atmospheric 
                         Administration (NOAA)

    Mr. Chairman and Members of the Committee, I am Dr. Louis W. 
Uccellini, Director of the National Centers for Environmental 
Prediction, in the National Weather Service (NWS), at the National 
Oceanic and Atmospheric Administration (NOAA), in the Department of 
Commerce. Thank you for inviting me here today to discuss the role of 
the National Weather Service in forecasting and warning for winter 
storms.
    A major winter storm can last for several days and be accompanied 
by freezing rain (ice) or sleet, heavy snowfall, and high winds that 
combine with cold temperatures to produce dangerous wind chills. The 
severity of a winter storm can range from a storm that produces snow or 
freezing rain over a few hours to blizzard conditions lasting several 
days. Extreme cold, accumulating or blowing snow, strong winds, and 
coastal flooding can cause long-term hazardous conditions. Winter 
storms can threaten lives, disrupt transportation systems and have a 
significant impact on the national economy. A single winter storm can 
cause major damage and billions of dollars in economic losses.
    The impacts of heavy snow and high winds in the Northeast United 
States have been documented by the earliest settlers dating to the 17th 
century. Legendary events, such as the ``great snow'' of 1717, the 
Washington-Jefferson Snowstorm of 1772, the blizzards of 1888 and 1899, 
the 1922 Knickerbocker storm, and the great New England snowstorm of 
1978 are recalled for generations by those who lived through these 
events or learned about them through local lore. Just last month an 
East Coast storm impacting regions from Alabama through Maine set an 
all time snowfall record in New York City. Over time, we may see this 
February storm included in this list of major U.S. winter storms.
    Winter storms also pose enormous challenges to the meteorological 
research and operational communities who have attempted to understand 
and predict them, often with mixed results.
    Heavy snow causes concerns larger in scope than mere discomfort and 
inconvenience of shoveling the driveway or walks. The impact to the 
airline and shipping industries can be devastating. The Nation's 
complex infrastructure of highways, city streets, and local roads 
present a challenge to the Department of Transportation, state 
agencies, and municipal governments, when hazardous winter weather 
conditions threaten our ability to maintain safe transit conditions for 
the public and the flow of commerce. Most people are unaware of the 
significant efforts, in terms of both planning and expense, by local 
and state agencies to remove snow and ice from our roadways.
    While severe winter weather can be debilitating and pose a serious 
threat to safety anywhere in our Nation, winter storms can have a 
particularly devastating impact to the economy in heavily populated and 
highly industrialized areas. The Northeast region from Virginia to 
Maine is such an area, and includes the densely populated metropolitan 
centers of Washington, Baltimore, Philadelphia, New York, and Boston. 
This region is home to nearly 50 million people. In the Northeast, 
heavy snowfall associated with intense coastal storms, often called 
nor'easters, may strand millions of people at home, at work or in 
transit; severely disrupt human services and commerce; and endanger the 
lives of those who venture outdoors. Snowstorms have their greatest 
impact on transportation, being especially disruptive to automotive 
travel, trucking, and aviation.
    The aviation industry can be significantly affected by snowstorms 
causing widespread delays, airport closings and occasionally 
contributing to serious airline accidents. For example, the snowstorm 
of January 7-8, 1996 crippled air transportation on the East Coast (New 
York, Washington, Boston, Philadelphia), causing an estimated $50-$100 
million in losses to the airlines industry. During the February 12, 
2006 snowstorm, airlines cancelled 2,500 flights in the New York City 
area alone.
    East Coast snowstorms can also have a long-term impact on the 
Nation's economy. Examples include the snowstorms of March 1993 and 
January 1996, which caused economic losses in the billions of dollars. 
In both of these instances, state and local resources were unable to 
keep pace with the enormous expenses incurred during each storm, and 
the President responded with numerous disaster declarations, allowing 
Federal funds to be used in disaster relief. The Department of Commerce 
measured a downturn in the economy following the March 1993 Super 
Storm. Studies based on economic indicators that are heavily weighted 
by employment statistics have also suggested that a major snowstorm in 
heavily populated areas, such as the Northeast, significantly 
influences the regional and the national economies, since a major storm 
temporarily puts millions of people out of work. Retail sales and 
housing activity are affected by heavy snows and severe cold. Reports 
have suggested that the Nation's economic strength was significantly 
weakened following the major snowstorms in February 1978, March 1992, 
and January and February 1994. During the harsh winter of 1977-78, the 
economy slowed from a 9 percent growth rate at the beginning of the 
winter season to only 1 percent during the winter itself. Once severe 
weather conditions eased, the economy rebounded significantly.
    Winter storms in the Central states can be equally devastating to 
the local economy and threaten life and safety. Heavy snow, strong 
winds and cold temperatures have shut down our interstate highway 
system, at times stranding hundreds of travelers and having a 
detrimental impact on our trucking industry.
    Winter storms along the West Coast provide a mixed blessing. While 
snow, ice and subfreezing temperatures are not as common in the major 
West Coast cities as in East or Central U.S. cities, impacts from 
winter storms can be just as devastating as in the East. Strong storms 
bring very heavy rains to coastal areas causing major flooding, flash 
floods, and mud, or debris, slides. Pacific Northwest storms which 
undergo ``explosive cyclogenesis,'' or very rapid intensification, can 
strike quickly bringing hurricane-force winds into the region. These 
storms frequently knock down power lines causing widespread power 
outages. The NWS works closely with our partners in the U.S. Geological 
Survey (USGS) and will issue a debris slide warning for vulnerable 
areas at the request of the USGS, when conditions warrant.
    While the impact from winter storms can be devastating, these 
storms also provide the lifeline for residents in the West. They bring 
heavy snow to the mountains to form the winter ``snowpack,'' which 
provides essential springtime and summer water as the snow melts in the 
mountains and feeds into the streams and rivers, providing water to 
farmers and the public. When too few winter storms occur in the West, 
the region can be faced with severe water resource challenges, 
particularly in the dry summer months.
    Some of the harshest winter weather conditions imaginable effect 
Alaska, including heavy snow, biting winds, and extreme cold. Eastern 
Pacific Ocean waters south of Alaska experience some of the most 
ferocious winter storms. Strong winds, waves of thirty feet or more, 
and subfreezing temperatures, combine to make this region very 
dangerous to shipping and fishing industries. Waves from intense storms 
crossing the Bering Sea produce coastal flooding and can drive large 
chunks of sea ice inland, destroying buildings near the shore. 
Blizzards occur across Alaska's Arctic coast, some causing extreme wind 
chill temperatures reaching as low as -90 +F. Extreme cold and ice fog 
may last a week at a time. Heavy snow can impact the interior part of 
the state and is common along the southern coast. Improved forecasts 
will have a large impact across Alaska, given the state's reliance on 
aviation for transportation, and on the marine fishing and shipping 
industries.
    During winter El Nino episodes, a strong jet stream and storm track 
generally persists across the southern part of the United States, and 
milder-than-average conditions producing fewer storms prevail across 
the northern part of the country. In contrast, El Nino conditions 
result in exceptionally stormy winters and increased precipitation 
across California and the southern United States. La Nina episodes 
generally produce the opposite pattern--bringing colder and stormier-
than-average conditions across the North, and warmer and less stormy 
conditions across the South. Also during La Nina, there is generally 
considerable month-to-month variation in temperature, rainfall and 
storminess. We are currently experiencing weak La Nina conditions 
across the country.
    The science of winter storm prediction has improved steadily over 
the past decades. Our 72-hour forecasts are as accurate today as our 
36-hour forecasts were 20 years ago. Tremendous advances have been made 
in the prediction and subsequent warnings of heavy snow events. In the 
1970s we could provide less than 12 hours advanced notice for snow fall 
amounts greater than 4 inches. Today, we are predicting heavy snow 
events 3-5 days in advance and are differentiating between 4-, 8-, 12-
inch snow fall amounts out to 3 days in advance. The average lead time 
for winter storms has been increasing and in FY 2005 the lead time was 
17 hours, surpassing the Government Performance and Results Act (GPRA) 
goal of 15 hours. This improvement is due in large part to continual 
improvements in our ability to observe and describe the current state 
of the atmosphere and to model the future state of the atmosphere.
    Specifically, this forecast improvement is due to (1) increases in 
the number of observations available, particularly satellite 
information and increases in surface observations; (2) improvements in 
depicting and understanding the state of the atmosphere through NOAA 
aircraft reconnaissance flights, which increase the number of 
observations over an area of the globe where additional information is 
needed to improve the accuracy of the numerical model's prediction of 
winter storms; (3) more sophisticated model data assimilation systems 
that are run on some of the most powerful high-performance computing 
systems in the world; and (4) improved global atmospheric modeling.
    Our improved ability to predict major snow events with increased 
confidence allows our diverse user community to make decisions prior to 
major snow events concerning public safety, transportation and 
commerce. For example, before the recent 12 February 2006 winter storm 
along the Northeast corridor, state and local communities up and down 
the coast had:

        Road crews positioned and schedules prepared to apply 
        chemicals,

        Retail outlets had snow removal and heavy clothing made 
        available with advertising of ``Blizzard Blowouts'' days before 
        this major snow event,

        Remarkable recovery due to planning ahead.

    Medium range and short range forecasts were accurate and provided 
the state and local governments with the information they needed to 
take action to mitigate the impact of this snowstorm. The public and 
private industry also had advance lead time to take necessary actions 
to prepare for this record-breaking winter storm.
    Using the new Northeast Snowfall Impact Scale (NESIS), the February 
12, 2006, storm was preliminarily classified as a ``Major,'' or a 
Category 3 storm. NESIS uses five categories (Notable, Significant, 
Major, Crippling, or Extreme) to communicate the severity of a storm 
based on snowfall amount and the population of the affected areas. 
NESIS will permit meteorologists to quickly communicate a snowstorm's 
potential impact and compare it with a past storm.
    While NOAA's storm prediction capabilities have improved over time, 
we continue to work to improve our forecasts. For the February 12, 2006 
storm, we predicted a major snowstorm, but we did not predict the 
snowfall amounts would be as heavy as they were. In New York City, we 
predicted a blizzard well in advance, with snowfall amounts more than a 
foot in places, but we did not forecast the storm would dump 26.9 
inches of snow in Central Park. We updated our forecasts based on the 
latest radar data and small scale reports we had, but we need to be 
able to predict these smaller scale situations within the overall 
larger storm.
    One of the biggest challenges in winter storm prediction is 
determining what type of precipitation will fall (rain, snow, sleet or 
freezing rain), how long it will last, and how much will fall. Meeting 
this challenge depends on our ability to accurately measure the current 
state of the atmosphere from the global scale to the local scale, to 
integrate this information into our forecast systems, and to predict 
the future state of the atmosphere. Specifically, understanding and 
depicting moisture throughout the atmosphere is a key area targeted for 
improvement as we strive to advance our models and predictions of the 
future state of the atmosphere.
    Another challenge we face is how to better communicate the 
uncertainty of our predictions. We asked the National Research Council 
to conduct a study to recommend how we might improve the methods we use 
to communicate forecast uncertainty and suggest ways to improve our 
products toward that end. We expect the report to be complete later 
this spring or early summer.
    NOAA produces a suite of winter weather products to assist state 
and local governments, private industry, and the media in communicating 
the effects and impacts of developing and ongoing weather systems to 
the general public and to help determine appropriate preparations in 
advance of a winter storm event. Winter Storm Outlooks are given when 
forecasters believe winter storm conditions are possible, and are 
usually issued 3 to 5 days in advance of a winter storm. Winter Storm 
Watches are issued 12 to 48 hours before the beginning of a Winter 
Storm and alert the public to the possibility of a heavy snow, heavy 
freezing rain, or heavy sleet. Winter Storm Warnings are issued when 
hazardous winter weather is imminent and are now being issued with lead 
times greater than 12 hours before the winter weather is expected to 
begin.
    NOAA's data and information are critical to ensure government 
officials, the public and private industry are informed of impending 
winter storms. NOAA provides essential observations, including radar 
data, surface observations, sea surface temperatures, and satellite 
images, as well as computer model simulations of the atmosphere that 
are used by the entire weather community. NOAA's data and information, 
including forecasts and warnings, are disseminated through the vast NWS 
dissemination network including NOAA Weather Radio All Hazards, 
Emergency Managers Weather Information Network, NOAA Weather Wire 
Service, the Emergency Alert System where applicable, and the Internet. 
Most of the public receives the weather information through the media. 
We work in close partnership with the media to ensure dangerous and 
potentially life threatening weather situations, such as winter storms, 
are communicated to the public.
    The private meteorological community also plays a critical role to 
ensure the public, and industry, are informed.
    Research into winter storms by universities, the private sector, 
and the Federal Government has provided us insight to understand the 
inner workings of these weather situations, but we can do more. As we 
increase our understanding of these storms, and increase observations 
of the environment with increasing detail, our storm predictions become 
more accurate--defining when and where the storm will hit. People now 
expect more from the National Weather Service, and believe we should 
get it right every time. At NOAA we will continue our efforts to 
improve winter storm forecasting, and all other weather predictions, to 
meet this high expectation.
    That concludes my statement, Mr. Chairman. Thank you for the 
opportunity to provide information on NOAA's winter storm forecasting 
capabilities. I am happy to respond to any questions the Committee may 
have.

    Senator DeMint. Doctor. Senator Stevens would you like to 
start our questioning?
    The Chairman. Thank you very much, Mr. Chairman, and I do 
thank you again for holding this hearing. I have a conflict 
later about 3:45, so I appreciate your letting me go first.
    Well first, Mayor Michels, you have some better planning 
mechanisms now than you had before coming out of the 2004 
storms. Do you think we need to do more to get you even better 
prepared? I noticed you mentioned one comment in your statement 
about some assistance you would like to have, could you 
elaborate on that?
    Ms. Michels. Yes, Senator. A lot of our villages do not 
have a hazardous mitigation plan, nor do they have the 
resources to do an incident command. This is something totally 
new to a city and to establish something of that magnitude 
requires someone walking you through, either a consultant, to 
establish this system and to be able to assist the cities. I 
think if we would be able to provide to be able to do that, 
that would greatly help them be able to prepare and recover 
faster.
    The Chairman. You'd like to see the villages in your area 
have the same kind of planning mechanisms that you've 
established for emergencies?
    Ms. Michels. Yes.
    The Chairman. Thank you. Doctor, I'm a little interested in 
some of the statistics I have. I hope I don't bore you with 
statistics, but I understand there are 122 NOAA weather offices 
in the United States. Is that right?
    Dr. Uccellini. That's correct.
    The Chairman. And we have, in Alaska, three. We're one-
fifth the size of the United States and the Anchorage weather 
forecast office area of responsibility is 1,038,737 miles. The 
Fairbanks area of responsibility is 507,870 miles. And the 
Juneau AOR is 155,029 miles. Now I know that we don't deal with 
population per se in weather prediction. Why do we have so few 
offices in Alaska as compared to the other four-fifths? Four-
fifths of the United States has 122. We have three.
    Dr. Uccellini. Well, during the design of the weather 
service modernization in the 1980s and 1990s, I know there was 
a tremendous amount of discussion, not only within the 
executive branch of the government, but between the executive 
and the legislative branches, in terms of the optimal number of 
offices that could be supported during the course of that 
modernization. With respect to Alaska, in deciding on the three 
that were named Fairbanks, Anchorage, and Juneau, there was 
also a decision made to sustain the Weather Service offices so 
that there'd be a way of outreaching into the other 
communities. That configuration of offices does not exist in 
the rest of the country. In other words, we just have the 
weather forecast offices in the continental U.S. and, for the 
most part, and I don't know if there are any what we call WSOs 
still open in the CONUS, Continental U.S.
    The Chairman. How many of those remain in Alaska now?
    Dr. Uccellini. There are--I think the number is seven or 
eight, but we'll get the specific back to you. But, for 
example, the office in Nome is a Weather Service office that 
works in collaboration and in partnership with Fairbanks in 
terms of----
    The Chairman. These predictions come from Fairbanks, right?
    Dr. Uccellini. That's correct. And, actually, some aspects 
of the predictions, the basis of the forecast process actually 
starts with numerical models that are run in Gaithersburg, 
Maryland and backed up in Fairmont, West Virginia. We have 
centers that provide information to Alaska as guidance products 
from the National Centers for Environmental Prediction.
    The Chairman. Then why don't you eliminate about 100 from 
the south 48?
    Dr. Uccellini. Well, we have----
    The Chairman. Why do you have 3 Weather Service offices in 
Alaska and 122 of them, in the lower 48 states?
    Dr. Uccellini. Well, there--the challenges involved--I'll 
try to address the Alaska situation first. The challenges 
involved in providing the level of services over such a large 
area, as you well know, and there are maps, which I have one in 
front of me, show how large an area it really is. And given the 
topographical influences that Alaska has which poses unique and 
important challenges to getting these services out, we felt, as 
we went through the modernization, that this was the best way 
of sustaining the level of services and then improving upon 
those services. Within the continental U.S., there are other 
weather challenges that were best served, like tornadic storms, 
which was one of the major reasons and was the major basis for 
the modernization, which was best served by those number of 
stations with their access to their radar data and which had a 
much shorter time element associated with it in getting the 
watches and warnings out. So, for example, these types of 
storms and the challenges that you're facing in Alaska, for 
which the October storm is a classic example, involves a larger 
area and the forecast process is over days down to hours. For a 
tornadic type of storm, you're dealing with hours to minutes 
and the station design and the network design in the United--
the continental United States was really focused on that kind 
of weather phenomena.
    The Chairman. Well, I understand when you're talking about 
the problems of rivers and flooding and things like that, but 
when I went up to the west coast of Alaska this last summer, I 
was told that Shishmaref, for instance, had no warning at all 
about the storm that hit them and it comes down to a question--
in the old days, there would have been a weather office every 
place there was a flight service station. When I first went to 
Alaska, everywhere there was a flight service station, there 
was a weather office. And that weather office had contact with 
the basic centers of forecasting at the time. You don't have 
that kind of a system now at all. You don't have anyone along 
the west coast. The whole west coast of Alaska is entirely 
denuded of any kind of weather forecast.
    Dr. Uccellini. OK. Well, let me just say that I think any 
meteorologist, any forecaster in any part of the world will 
tell you that our forecasts are not perfect, and I would say 
that the chances are they'll never be perfect. There are too 
many parameters in the atmosphere, the surface, ocean 
interaction, et cetera, which leads to potential for error. So 
there are cases in which forecasts are missed, warnings are 
missed. We have found that there are less of those now than 
there were 20 years ago by a large degree. With respect to the 
specific storm that you highlight, I don't have any information 
on that and I can't answer that directly here, but I will 
certainly go back and get the required information on that.
    The Chairman. Well, I would ask you to restudy it. I also 
have here a map of river monitors in the south--what we call 
the south 48, continental U.S. and in Alaska. If you want to 
look at it, along the east coast, for instance, the monitors 
are so many, they overlap. In the Kenai Peninsula, which is 
south of Anchorage, which is the size of New England, there's 
one. One river monitor, although there's a series of rivers. 
Now why does that exist, Doctor?
    Dr. Uccellini. We recognize that there are deficiencies in 
observing networks involving many parameters. We work to--we 
attempt, not only within NOAA, but in working with other 
agencies, in enhancing those observing parameters. And we have 
worked those up through the budget process and clearly, we 
never get everything we want in terms of the observational 
capability, but we make--we work with what we can get, and it's 
not only observations that NOAA provides, but observations that 
other agencies provide. So the USGS, for example, we work in 
partnership with in terms of getting river observations. And 
there have been many examples where, through the budget cycles 
where we don't--we can't get what we need. They have gotten 
capabilities. We rely on their capabilities. So it's not just 
what NOAA has in terms of an observing network, it's what other 
agencies have as well. And one of the things that we've been 
doing over the last 5 to 10 years is working with a number of 
the land management agencies to get access to their data and 
get them to that--get that data to our forecast offices in real 
time to enhance our short term forecast capabilities. So what 
we have done is try to capitalize and leverage off of what's 
going on in other agencies. But that's an ongoing process.
    The Chairman. That's a nice explanation. Respectfully, I've 
got to tell you, you're basing your weather observation on 
population. You look at the most populated states, you've got 
several monitors on one river. You have an area of a state like 
ours that has many, many, many rivers and has a small 
population, you have one. Now I don't understand that at all 
and I urge you to go back and study it again. In this process 
now--we're going through now, we can't have earmarks. We can't 
make changes to budgets. You people are making these decisions, 
but somehow or another, we have to find a way to catch up. Our 
people are being harmed very drastically, on an individual 
basis, small small areas. Whenever there's something like 
Katrina, respectfully, the world turns out to help them. But 
this is the--this will now be the third summer since those 
storms hit the west coast of Alaska and I just spent time this 
morning with the Corps of Engineers, we still haven't got the 
money to start repairing the damage that was done then. But 
that's not your fault, the problem is, they didn't have any 
warning. And I think we're entitled to warning, whether it's 
two or three people in the village or 2,000 people in the city 
or 20--2,000,000 people in the city. Somehow or another, this 
has to be changed. I'm really upset with these--the statistics 
that's come out of this hearing that we didn't have a chance to 
have before. I never saw those maps before and I'm delighted 
you had the hearing, because you've given us the maps. You 
prepared those maps for us and they struck me like a brick bat. 
I don't understand why--again, I'll get back to you. I want you 
to tell me, who made the decision only one river monitor in the 
State of Alaska?
    Dr. Uccellini. I'd have to get back to you on that.
    The Chairman. I'd like to talk to them.
    Dr. Uccellini. OK.
    The Chairman. I'd like to have them come up, just come up 
and visit the state.
    Dr. Uccellini. If I may just add one aspect to this, and 
it's--again, it's always a balancing act within, you know, the 
budget that one is allotted----
    The Chairman. Well, there we get back to population.
    Dr. Uccellini. Well, we also----
    The Chairman. It's allocated on the basis of population 
size--a lot more area.
    Dr. Uccellini. We're also making decisions with respect to 
remotely sensed data versus the in situ data that's collected 
at these individual points, and that's where the power of the 
satellite comes in. And for Alaska, actually you're uniquely 
positioned because you get more overpasses from the lower earth 
orbiting satellites than--and more frequently than----
    The Chairman. I've taken more of my time than I should, 
Senator. I'm sorry.
    Dr. Uccellini. So that we can actually, you know, get a 
fair amount of observations now in areas that we haven't 
before, and they're all important to us. It's not just in the 
populated areas. We need those observations everywhere to make 
these models work to give you the 72-hour and 96-hour 
forecasts. So we need these observations everywhere, not just 
in the populated areas.
    The Chairman. Thank you.
    Dr. Uccellini. But you're right in pointing to specific 
gauges and those types of problems that do require in situ 
observations, we could always use more data.
    The Chairman. Thank you. And thank you again, Mayor, for 
coming down to testify. We appreciate it very much.
    Senator DeMint. Senator Nelson?
    The Chairman. Thank you, Senator.
    Senator DeMint. Thank you, Chairman.
    Senator Nelson. Again, thank you, Mr. Chairman. Dr. 
Uccellini, you're clearly an expert in winter storms, 
particularly in the northeast and with the Alaska area as well, 
and I understand that the nor'easterner--nor'easter can be 
particularly devastating, and I'm very interested in that, but 
obviously, being a little bit closer to home in Nebraska, I'd 
like to learn more about what kind of weather needs and 
concerns you're working on for the Midwest, in particular our 
location in Nebraska, Dakotas, Kansas, Iowa area.
    Dr. Uccellini. I'd be glad to. I would like to point out 
that I spent 11 years at the University of Wisconsin going 
through my various degrees and post-op work and all that, and I 
did a number of case studies on Midwestern storms, including 
those that affected Nebraska, both from a severe weather point 
of view and a blizzard point of view, and I recognize the 
challenge--I've actually done case studies on storms out there 
and recognize the challenges are immense. One of the 
complexities involved with the storms in the Midwest is how 
these systems come off the Rocky Mountains. And it's only been 
in the last 10 years--time flies, the last 15 years, that we've 
actually been able to model the development of these storms 
that come off the Rockies and actually get an accurate track 
prediction that would affect areas like Nebraska and the rest 
of the Midwest. So, when you're looking at the forecast problem 
from days in advance, it's not just what's going on in the 
Midwest, it's what's going on upstream a few, being able to get 
those observations, being able to do the numerical modeling 
that accounts for the true impact of the mountains. That allows 
us to predict the track of these storms and the type of weather 
that you will get. Now one of the aspects--so the track 
forecast, you might have heard this with the hurricane problem, 
you know, it comes down to track and intensity. And we're 
making improvements on track forecasts on both measures, and 
the numerical models are an important part of that. The 
intensification of these storms, and the rapid intensifications 
are what can change what you might consider a--just a normal 
storm coming through into a full blown blizzard that provides 
incredible challenges, not only to the forecasters, but to the 
people who have to live through them. We are getting a lot 
better on those intensity changes as well. In fact, we're 
making more rapid progress for these what we call extra 
tropical storms over the United States than we are for 
hurricanes. So, I believe we are making the progress, but 
refining those forecasts, giving you the exact area where 
you'll have your transition from rain to snow, where, you know, 
the strongest winds will be as the snow is falling, those types 
of parameters still need improvement and we're looking to the 
numerical modeling and the better observations upstream of your 
area to help us along.
    Senator Nelson. What about the observation platforms and 
radars that are located? Do you have a sufficient number of 
those? Are they strategically located, or is that any part of 
the challenge that you're facing?
    Dr. Uccellini. That northern--the central part of the 
country is well observed from a radar perspective and I have to 
tell you that the radars, the Doppler radars, have probably 
been the single most effective observing tool that allows us to 
define what's going on now and project what's going to go on in 
the short term. In fact, when I see these radar images today, I 
don't know how we did this before we got the Doppler radar 
system. We were dealing with these short term changes in the 
blind before we had this system. So I believe that the--
especially the Midwest is well observed from a radar 
perspective. The other advantage that you actually have, 
immediately to the south of you is you have this--the profiler 
network which was implemented in the late 1980s and it really 
is focused on the central part of the country. And that real 
time continuous measure of winds throughout a deep layer of the 
atmosphere that we don't really have anyplace else in the 
country, provides an enormous advantage to the forecasters that 
are dealing with the storms that affect Nebraska, both from 
severe spring/summer weather kind of storms and the winter 
weather as well.
    Senator Nelson. What impact does the--well, the presence of 
the satellites, for example, the National Polar Orbiting 
Operational Environmental Satellite System, NPOESS, I'm 
concerned because it's my understanding that that may be 
delayed because it's undergoing a cost review. What does that 
do to your capabilities to track the weather?
    Dr. Uccellini. Yes. The--when you look at the numerical 
weather prediction system, we start with a global observing 
system, assimilate all that data into global models and run 
those models out 16 days in advance four times a day. We use 
those models then to set boundary and initial conditions for 
higher resolution, more local models. So when you trace the 
forecast process back, you're always starting with a global 
observing system. We recognize all forecasts are local, but you 
start with a global observing system. The key parameter for 
that global observing system is in polar satellites. So we have 
come to rely on those. If you track the improvements in 
numerical models in our model forecast, they're related to the 
improvements in the global observing and to the improvements in 
the models in the computing capacity that allows us to run 
those models in real time. If we were to lose the polar 
orbiting system, if we had a delay where there was a gap, we 
would have significant impacts on our ability to do those two, 
three, four, five day forecasts for critical weather events.
    Senator Nelson. Well, if there's a delay, isn't that 
exactly what's going to happen?
    Dr. Uccellini. Well what we have done, we've been working 
with NASA and Department of Defense. We've actually created in 
2000 a Joint Center for Satellite Data Assimilation and we are 
now working more effectively with the research and operational 
community, which involves DOD and other international 
satellites. And we have a pathway now of working our way from 
what was the satellite observations in the 1990s with 16 
channels and about three vertical layers, into this 
hyperspectral mode. We have a whole sequence of research 
satellites and satellites being launched by Europe which will 
allow us to fill that gap up until the time NPOESS, you know, 
is launched. We were asked that question about a potential 1-
year or 2-year delay. We said as long as, you know, the CrIS, 
the IASI, the NPOESS preparatory missions, if all those stay on 
track, we're OK. Now that's a risk factor, you know, that 
people have to measure risk and how you're going to deal with 
that. But as long as that sequence is there, we will not have 
the gap. Then NPOESS comes along and operationalizes the whole 
notion and we'll be ready for that launch.
    Senator Nelson. What does--now does NPOESS help you with 
the jet stream or is that another monitoring procedure?
    Dr. Uccellini. Yes. We rely--observing the winds aloft is 
probably one of the bigger challenges that we have. We can use 
the channels from the current satellites into NPOESS to help us 
derive the winds. We can use channels to actually measure 
vectors and measure the winds directly. In the polar regions, 
where we have a more frequent overpass and we use the GEO 
stationary satellite imagery then to also compute wind vectors. 
So that's a whole sequence that we can use from satellites, 
plus we have the winds from commercial airlines now that we get 
every 5 minutes while these, you know, planes are in flight, we 
get the vertical profiles when they're taking off and landing. 
All of this data is assimilated in real time. I would say that 
there's no one silver bullet with respect to getting a wind 
feel which is essential for a forecast. We have to assimilate 
all of these different types of winds, bring them into the 
numerical models in such a way that the models will accept them 
and then we can run out in our forecast.
    Senator Nelson. If there was one thing that you could ask 
of us that would make it possible for you to do your job better 
or more thoroughly or improve your capabilities, what would it 
be, outside of money?
    Dr. Uccellini. Yeah. I've got people behind me to make sure 
I don't mention the word money. The--it's really clear when you 
look at the way a forecast is made, you have observations, you 
have numerical models that run on powerful computing systems, 
and then you have forecasters who digest--you bring the 
information to these forecasters with work stations. They bring 
their expertise and they make judgments. They reach out to the 
state and local officials that have to make critical decisions. 
You know, it's always tough to say where's one thing, but I 
always point to the computing power. If we--you know, we have a 
system now where we lease computers. We upgrade every year and 
a half. It's a pretty good system, but we're still falling 
behind the curve. And there are still things that we can do in 
terms of improving numerical forecasts, improving the use of 
satellite data in which hundreds of millions of dollars are 
invested in every year. That if we had more and more powerful 
computers, there are more and more things we can do across the 
board for all of these weather systems. So, you know, I--you 
got to have the forecasters and we've got to support our 
people, but if there is one thing that, you know, that makes 
this thing tick, it's the computers and we have to be on the 
competitive edge on the--in the computer world to be able to 
advance.
    Senator Nelson. Thank you very much, Mr. Chairman. Thank 
you, Dr. Uccellini.
    Senator DeMint. Doctor, I think you may have just answered 
my question, but I am curious at recent ratings of the 500 top 
computers in the world rated the United States Weather Service 
90th while the Chinese agency is 36th. My question was, is it a 
problem with our modeling, our people, or our computers, or why 
are we falling behind the rest of the world?
    Dr. Uccellini. Well, I mentioned that I feel good about the 
situation we're in from the way we lease computers now, 
compared to where we were in the 1990s when we were in a buy 
mode. You could always get hung up in any aspect of the 
procurement process and actually literally get frozen, much 
less, you know, fall behind. You know, literally frozen, which 
is--was almost a death for us with respect to keeping up with 
the rest of the world. So, in one hand, I'm happy with what 
we've been able to do in terms of going into this lease 
arrangement, every year and a half upgrading our systems. But 
the fact is, given, you know--and we're all living under budget 
constraints, and given the amount of money we're actually able 
to move forward with, we get the best--you know, through our 
procurement process, get the best computing power that we can 
get for that. At the same time, there is an increasing mission 
on us in terms of computational needs. Five years ago, we 
didn't have a climate forecast system that was run 
operationally. We do today. We made allotments for that in our 
computing resources, but the advances are going so much faster 
than we anticipated that there are things that can be done 
today for even the climate fore--we're talking short range, 
like the seasonal into annual type forecast. We've got the 
ocean prediction systems. We weren't making specific forecasts 
for ocean systems 5 years ago. We are today. So all of these 
added factors, and important factors, are being pushed onto the 
same computational system. So as we approach the next 
procurement cycle, which is about a year and a half or 2 years 
from now, you're going to see requirements now driving this 
computer buy or lease in ways that the previous one didn't. But 
we have to go through that cycle. Now these other groups, I 
think have a bit more flexibility than we have, some of these 
countries do and some of them have just got their computing 
systems. And I can almost guarantee you that a year from now 
you'll see them drop down the list and others work their way 
up. We're planned for an upgrade at the end of this calendar 
year. It's two and a half times what we do today. So we're 1.5 
trillion computations per second. We'll more than double that 
and we'll still probably be about 40 or 50 for 6 or 7 months 
and then somebody will leapfrog us on that. But there's clearly 
more that can be done in the computational area.
    Senator DeMint. Does the leasing approach solve the 
government procurement problem, or do we still have a problem 
with the way the government purchases? What's holding you back 
there? Or is the problem solved?
    Dr. Uccellini. The procurement issues have--you know, I 
wouldn't say--I'm not a procurement expert, but I would say 
that we're in a lot better shape now through leasing 
arrangements than we were in buying. OK. Because if you get 
hung up at any level as you go up to OMB, you know, again, 
tough decisions are made. If you get hung up in the interaction 
between the executive and legislative branch and you lose that 
opportunity to buy, then you start all over again. What we 
found in the leasing arrangement, we had more flexibility in 
the procurement cycle and were able to get things through 
because you don't have a bigger cost up front. OK. And you work 
your way up in a steadier budget profile. So I think that's a 
better way to go. It's just that how much resources you can 
bring. Literally, we're in an era now with parallel processing, 
it's the more racks you buy, the more power you get, or the 
more racks you lease, the more power you get. So we get a 
budget, we design our computing capability within that budget 
and apply her to our requirements. And that's basically where 
we're at.
    Senator DeMint. Ms. Michels, you mentioned that the Weather 
Service was working well with you in Nome, but that your 
problem was surrounding villages were not well prepared. Is the 
problem that they're not getting the word of weather that's 
heading that way or it's just that they don't have the means, 
the ability to be prepared and to take precautions?
    Ms. Michels. I think it's both. The Weather Service, the 
Nome staff had provided me an Excel spreadsheet from 2002 when 
the time they were to do an advisory and a warning, and there 
were a couple of times in the Shishmaref, Kivalina area where 
they didn't have enough data to be able to provide the 
information to do a warning until the storm was, you know, 
right at your doorstep. So there are data holes out there that 
really would be able to help the Weather Service predict more 
of these weather advisories. And then, second, it is also a 
resource issue in our villages. There's just not a lot of 
training or the resources out there to be able to prepare. A 
lot of heavy equipment doesn't work or there's a lack of heavy 
equipment. So, it's both.
    Senator DeMint. One of the frustrations we have as we push 
this Committee forward is we know that even when people are 
warned, as we saw last year, that sometimes they don't do 
anything or they don't get prepared. So I guess our question 
is, how much do we spend to be able to give people notice if 
we're not sure they're going to respond. And I guess that gets 
back to local authorities and preparation, but what's your 
comment to that?
    Ms. Michels. I can guarantee you, when we get those storm 
warnings, we are running around trying to get everything up to 
high ground, doing whatever we can to protect our food, our 
boats, you know, our cabins, everything. When we do get those 
warnings, we----
    Senator DeMint. You take them seriously.
    Ms. Michels.--take them very seriously.
    Senator DeMint. OK. All right. Senator Nelson, any more 
questions?
    Senator Nelson. Yes. Doctor, one other question. In terms 
of reaching out to other sources for help, computer help or 
other just informational sources, do you interact with the 
Weather Service part of a strategic command located at Offutt 
in the Omaha area?
    Dr. Uccellini. The answer is yes. I'm actually--there's a 
group--you know, I hate to throw acronyms around, but there's a 
group that meet three times a year, including the AFWA 
commander, myself, FNOC out of Monterey, and AVO. We have 
shared resources. We have backup plans. We have come up with an 
operations concept which allows us now--we actually, for non-
classified applications, we provide computing--computer model 
support for AFWA for the United States areas. Actually for the 
whole North America sector, and then we rely on their model 
runs for their windows. If we have to, for example, support 
USAID over Afghanistan, we don't run our model over 
Afghanistan, we rely on the Air Force models that are run over 
Afghanistan. So we got this whole shared process. We are 
working toward backup plans, which are much more rigorous than 
we've had in the past, which involves double and triple ways of 
moving the data around because not only what we have in 
Gaithersburg but because of what--the backup system we have in 
Fairmont, West Virginia. And, last but not least, with the new 
building out in Omaha, we are working on plans which have not 
been finalized yet, but are pretty close, in terms of locating 
our operational computer, our next generation operational 
computer there since our security ranking is going up. That's 
probably one of the most secure areas which has access to all 
the data that I was talking about before. So the working 
relationship is very close. We follow up three times a year and 
we've made tremendous progress over the last 20 years.
    Senator Nelson. Is any of the data that they can 
accumulate, is that--can you access that or is that in a format 
that you can use?
    Dr. Uccellini. Yeah. We not only access the DMSPs, the 
Defense satellite systems, but they also have classified data 
which we're allowed to access and use for our land models as 
long as--you know, we don't--we can't re-release that data, but 
we can use it within our numerical models and then release the 
predictions. And that's all done under a special arrangement 
now that's been signed off at the highest level. So the data 
exchange has--it's been a very good arrangement, especially--
not only with the Air Force, but with the Navy as well.
    Senator Nelson. I think that concludes my questions. Thank 
you.
    Senator DeMint. One last question, and I know we need to 
let you folks go, but Doctor, I'm just curious about the 
flexibility you have in your agency to, I guess, move dollars 
around. For instance, Nome. The Mayor has said perhaps a closer 
buoy, another observation point. Can you, the way we're 
structured as--as NOAA's structured as an agency, go back and 
say, hey, we're going to close a couple of sites in these 
states and add a couple along the west coast of Alaska, or is 
that just a political bombshell? I mean, do you not adjust by 
priorities? I mean, is that something we would have to mandate 
for you to do, or can you do it?
    Dr. Uccellini. Well, let me say this. We've had situations 
in the last 3 years in which buoys have been added, especially 
in the gulf. Even the--and we've had tsunami, the buoys, the 
special observation systems now that have been added in the 
Atlantic. Those were all done through supplementals. It's very 
hard. We have our own set of buoys. There are other agencies 
that have had buoys out there that we've accessed that when 
they close down those buoys, we get blamed for closing down 
those buoys. OK. In other words, because we've used those 
buoys, made the data visible to the communities nearby or the 
data, as it's being used in our models, people understand how 
important they are. I haven't seen--I personally haven't seen 
situations where one buoy is closed down and moved someplace 
else. It--you're really adding to it. Now, there was an Academy 
of Sciences study done in the late 1990s and early 2000 time 
period that pointed to an optimal array of buoys around the 
United States. We're working toward that, but we haven't 
attained it.
    Senator DeMint. Yeah. As you can see, Senator Stevens is 
very interested in coverage in Alaska, so I would encourage 
that.
    Dr. Uccellini. By the way, I have some information with 
respect to questions he asked. Should I say that now, or should 
I just bring it over to the--like the number----
    Senator DeMint. I think if you can submit those in writing, 
it'd be most helpful.
    Dr. Uccellini. OK.
    Senator DeMint. I thank you both very much, particularly, 
again, Mayor, for your long travels and this information will 
be included in the record and hopefully we can respond in a way 
that'll be helpful. Thank you.
    Ms. Michels. Thank you.
    [Whereupon at 3:35 p.m., the hearing was adjourned]

                                  <all>

</pre></body></html>
